CERTIFICATE OF SERVICE
NO. TBD
Michael J. Murray, M.D.
Petitioner(s)
v.
Mayo Clinic et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the MICHAEL
J. MURRAY, M.D. PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of
the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
John F. Lomax, Jr.
Snell & Wilmer L.L.P.
One Arizona Center
400 East Van Buren Street, Suite 1900
Phoenix, AZ 85004-2202
(602) 382-6305
Counsel for Mayo Clinic et al.

Lucas DeDeus

February 3, 2020
SCP Tracking: Sandweiss-3200 North Central Ave.,-Cover White

